No. 20-1029

 

IN THE

Supreme Court of the Anited States

CITY OF AUSTIN, TEXAS,
Petitioner,
¥.
REAGAN NATIONAL ADVERTISING OF TEXAS,
INCORPORATED, ET AL.,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

BRIEF FOR AMICUS CURIAE
AMERICANS FOR PROSPERITY FOUNDATION
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,896 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 27, 2021.

 

Colin Casey Hogan
Wilson-Epes Printirig Co., Inc.
